Brewster & De Angelis
---A DVO C A T E S---

CLARK 0. BREWSTER
cbrewster@brewsterlaw.com
Phone 918-742-2021
Facsimile 918-742-2197

L aw Offices of
B rewster & De Angelis

2617 East 21st Street
Tulsa, OK 74114

January 18, 2021
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street NE Washington, DC 20543
Re: Chffo1·d v. Trump, 20·602
Dear Mr. Harris:
On behalf of petitioner, I write to waive the 14-day waiting period under rule 15.5
and respectfully request that this petition be set for distribution on January 22,
2021. After we filed this petition on October 29, 2020, Respondent filed a waiver of
his right to file a response. The Court called for a response from Respondent on
December 10, 2020, and Respondent has since filed a brief in opposition. Petitioner
anticipates promptly filing a reply brief on January 19, 2021 explaining why the
Court should grant plenary review on the question presented.
Thank you for your consideration

Clark 0. Brewster
Mbilike M. Mwafulirwa

cc: all counsel (by e-mail)

www.brewsterlaw.com
*CLARK 0. BREWSTER • JENNIFER L. DE ANGELIS • GUY A. FORTNEY
MONTGOMERY L. LAIR • KATIE A. MCDANIEL

• MBILIKE M. MWAFULIRWA

*Licensed in Oklahoma and Texas

• SHEA A. BIELBY

